          REVIEW OF MEDICAL
         REIMBURSEMENTS AND
            AUTHORIZATION
        OF SURGICAL REQUESTS
      FOR THE OFFICE OF WORKERS’
       COMPENSATION PROGRAMS




            U.S. Department of Labor
           Office of Inspector General
Office of Analysis, Complaints and Evaluations




                         Report Number: 2E-04-430-0001
                         Date: May 17, 1999
                                                        Table of Contents

                                                                                                                         Page

Executive Summary. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          2

I.   Purpose. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   4

II. Findings. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   6

     1.         Reimbursement of Claimant Out-of-Pocket Medical Expenses. . . . . .                                     6

     2.         OWCP’s Timeliness in Processing Surgical Authorizations. . . . . . . . .                                9

III. Conclusions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   12

IV. Recommendation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         13



Appendices

A. Background. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         14

B. Methodology. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     16

C. Data Sources Reviewed. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             18

D. Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          19


Acronyms

     CPT                              Current Procedural Terminology
     FECA                             Federal Employees Compensation Act
     GAO                              General Accounting Office
     OIG                              Office of Inspector General
     OWCP                             Office of Workers’ Compensation Programs
EXECUTIVE SUMMARY

  The Office of the Inspector General (OIG) conducted this review in response to
  testimony presented at a July 6, 1998, Congressional hearing of the House
  Government Reform and Oversight Committee, Government Information and
  Technology Subcommittee that was critical of the Office of Workers’ Compensation
  Programs’ (OWCP) administration of the Federal Employees’ Compensation Act
  (FECA). After analyzing the hearing transcript, OWCP’s written response to
  allegations made by the 19 claimants during that hearing, and relevant OlG and
  General Accounting Office (GAO) reports, we decided to examine two issues that
  remained unaddressed -- timeliness of claimant reimbursement for out-of-pocket
  medical expenses and requests for surgical authorizations.

  We found that reimbursement of claimants’ out-of-pocket expenses is not a substantial
  issue. OWCP data show that reimbursement of claimants represents only 3 percent of
  all medical bills paid by OWCP.
  OWCP surpasses the 95
                                   Payment of Claimant-Submitted Bills
  percent 60-day performance
                                      100%
  standard by paying 96.9
  percent of all claimant-
                                       80%
  submitted bills in 60 days,
  although it falls somewhat short
                                       60%
  of the 90 percent standard in 28
  days by paying 82.1 percent of
                                       40%
  claimant-submitted bills within
  28 days. However, OWCP told
                                       20%
  us that in January 1999, they
  implemented an automated bill
                                        0%
  review system. They expect this
  new system to increase the             14 days              28 days                 60 days
  percentage of claimant-                          % of claimant-submitted bills paid
  submitted bills paid in 28 days.

  Pharmacy bills are the largest category of claimant reimbursements. OWCP has
  implemented an electronic billing system that allows pharmacies to bill OWCP directly,
  eliminating the need for claimant out-of-pocket expenses. OWCP records show that
  after only four months, the new system has reduced claimant-submitted pharmacy bills
  by 10 percentage points.

  OWCP deals with two different types of surgeries–emergency and non-emergency. If
  an employee suffers a traumatic injury at work and requires emergency surgery, the

                                             2
employing agency is responsible for authorizing the medical treatment within four hours
of injury. Our review examined OWCP’s handling of requests for non-emergency
surgery.

OWCP has not set a performance standard in this area. Although we contacted many
different sources such as the Workers’ Compensation Research Institute and State
Workers’ Compensation Programs, we did not find a standard with which to measure
OWCP’s performance. We did not find a pattern of delays in the case files we
examined. In addition, OIG complaint letters contain few complaints regarding delays
in reimbursement and surgical authorizations.

We recommend that OWCP set a performance standard for responding to surgical
requests to reduce claimant uncertainty about the process. OWCP’s response might
be in the form of a request for additional information, an appointment to see a
physician for a second opinion exam or an approval for surgery. Four of OWCP’s
twelve district offices already track surgical requests and have set performance
standards. The performance standards range from 7 to 10 days.

The following report contains our analysis, findings and recommendation regarding
OWCP’s response to claimants’ requests for reimbursement for out-of-pocket medical
expenses and surgical authorizations. We provided a draft of this report to OWCP.
The agency’s response is found in the body of the report and in its entirety in Appendix
D. OWCP did not agree to set a performance standard at this time. We will consider
our recommendation resolved once OWCP sets a performance standard for
responding to surgical requests.




                                         3
I. Purpose

     This review assesses the timeliness of OWCP’s response to claimants’ requests
     for out-of-pocket expenses and surgical authorizations. On July 6, 1998,
     Congressman Stephen Horn of the House Government Reform and Oversight
     Committee, Government Management Information and Technology Subcommittee
     held a hearing in Long Beach, California on OWCP’s service to injured employees
     under the FECA. The purpose of Congressman Horn’s hearing was to find ways to
     improve the federal employees’ compensation system. Nineteen claimants
     testified, either on a panel or from the audience. The claimants expressed a wide
     variety of complaints that pointed to possible anti-claimant bias on the part of
     OWCP, including difficulties with adjudication of claims, problems communicating
     with district offices, disputes with employing agencies and delays in reimbursement
     of claimant out-of-pocket medical expenses and surgical authorizations.

     In a July 31, 1998 letter to Chairman Horn, OWCP addressed the agency’s handling
     of each of the 19 cases. According to OWCP, only two involved delays with
     surgical authorizations and none related to delays in reimbursing claimant out-of-
     pocket medical expenses. Of the remaining 17 cases, seven involved delays on the
     part of OWCP unrelated to reimbursement of claimants and surgical authorizations.
     The other 10 involved lack of medical evidence, claimant confusion over the
     process and other issues which were the responsibility of the employing agencies.

     Earlier OIG and GAO reports found no evidence of anti-claimant bias in OWCP’s
     selection and payment of second-opinion physicians or handling of claims. In 1998,
     the OIG study, Review of FECA Program Administration, examined the OWCP’s
     acceptance of initial claims for benefits, the termination of benefits and the appeals
     process administered by the Branch of Hearings and Review. OIG did not find a
     systemic anti-claimant bias but, to the contrary, found OWCP commitment to
     improving the quality of service to claimants and ensuring cost-effective
     administration of the program.

     In 1994 the GAO report, Federal Employees’ Compensation Act - Non Evidence
     That Labor’s Physician Selection Processes Biased Claimants’ Decisions,
     investigated allegations that OWCP (1) “shopped” for physicians to conduct
     second-opinion exams and independent medical examinations who would be
     predisposed against claimants and (2) took longer to reimburse claimants’
     physicians than to reimburse physicians selected by OWCP. GAO found no
     evidence to support either allegation. OWCP’s process for selecting physicians
     provided a reasonable level of certainty that the physicians were selected in an
     unbiased manner. While GAO did not distinguish between payments made directly

                                           4
to providers and reimbursements to claimants, GAO found that OWCP was
meeting its overall bill payment performance standards.

After analyzing the hearing transcript, OWCP’s written response to allegations
made by the 19 claimants during that hearing, and the OIG and GAO reports, we
identified two issues that remained unaddressed–timeliness of claimant
reimbursement for out-of-pocket medical expenses and requests for surgical
authorizations.

Accordingly, the objective of this review was to determine whether OWCP was
responding in a timely manner to claimants’ requests for:

•      Reimbursement for out-of-pocket expenses and
•      Surgical authorizations.

Our review was conducted in accordance with the Quality Standards for
Inspections published by the President’s Council on Integrity and Efficiency.




                                      5
II. Findings


1.     Reimbursement of Claimant Out-of-Pocket Medical Expenses

       As Figure 1 shows, claimant-submitted bills are only 3 percent of the 2,817,021
       bills OWCP paid in fiscal year 1998.




                 Figure 1: Provider-Submitted vs Claimant-Submitted Bills




                       2500000

                       2000000

                       1500000

                       1000000

                        500000

                             0

                                  Provider-Submitted (97%)
                                  Claimant-Submitted (3%)




       We found that OWCP surpasses the 95 percent 60-day performance standard by
       paying 96.9 percent of all claimant-submitted bills in 60 days, but falls somewhat
       short of the 90 percent standard for 28 days by paying 82.1 percent of claimant-
       submitted bills within 28 days.1 However, OWCP told us that in January 1999, they


       1
       At the time of this report, the agency was unable to retrieve dollar amounts to
correspond with these percentages.

                                             6
implemented an automated bill review system. Prior to this new system, OWCP
had to manually review each bill. OWCP expects this new system to shorten the
time for processing bills and therefore increase the percentage of claimant-
submitted bills paid in 28 days. Furthermore, an electronic billing system OWCP
has put in place is expected to reduce the overall percentage of claimant-submitted
bills.

As Figure 2 illustrates, pharmacy bills are 88 percent of all claimant-submitted bills,
physician bills are 10 percent and outpatient bills are less than 1 percent.




       Figure 2: Categories of Claimant-Submitted Bills




We found that for July 1, 1997, through July 14, 1998, OWCP exceeded the 60 day
standard by paying 97 percent claimant-submitted pharmacy bills in 60 days and
came very close to the 28 day standard by paying 83 percent in 28 days. In fiscal
year 1998, OWCP did not meet performance standards in either claimant-
submitted physician bills or claimant-submitted outpatient bills. Although pharmacy


                                       7
bills are by far the largest category of claimant-submitted bills that OWCP
reimburses, they represent only 2 percent of all medical services paid for by
OWCP. The remaining two categories -- claimant-submitted physician bills and
claimant-submitted outpatient bills -- are only .2 percent and .02 percent
respectively of all medical services paid for by OWCP.

In an effort to reduce claimant-submitted bills, OWCP implemented an electronic
billing system for pharmacy bills -- the bulk of all claimant-submitted bills -- in July,
1998. The system allows participating pharmacies to bill OWCP directly, thus
eliminating the need for claimants to pay pharmacy bills out-of-pocket and request
reimbursement from OWCP.

The year before the electronic billing system was implemented, claimant-submitted
bills were 22 percent of the total pharmacy bills. Four months after the electronic
billing system was in place, the percentage dropped to 12 percent. OWCP
provides lists of participating pharmacies to district offices and posts them on the
internet. OWCP’s efforts to reduce claimant-submitted bills appear to be on the
right track and are showing early success.

Also, in August 1997, OWCP introduced a Claimant Medical Reimbursement
Form. This form tells claimants what documentation OWCP requires to reimburse
out-of-pocket medical expenses. By completing the form, a claimant greatly
reduces the possibility of OWCP returning their bill to request additional
information, thus reducing delays in claimant reimbursement.

OWCP is working on several other technological innovations to further streamline
the bill payment process. OWCP plans to have the new computer system in place
by July 2001. Where feasible, the new system will use imaging and electronic
capture of data, instead of manual data entry. This will allow OWCP to establish
more electronic billing programs like the one currently in place for pharmacies.

OWCP is also in the process of imaging all its case files and medical bill batches.
Bill batch imaging gives claims examiners quicker access to specific bills. Instead
of searching for the paper copy, the staff will be able to quickly access an electronic
copy. OWCP expects this innovation to improve the timeliness of their responses
to claimants’ needs.




2.    OWCP’s Timeliness in Processing Surgical Authorizations

                                         8
OWCP has not set a performance standard in this area. We contacted a wide
range of sources such as the Workers’ Compensation Research Institute and State
Workers’ Compensation Offices; however, we found no standard against which to
benchmark OWCP’s performance.

Some OWCP district offices attempt to track the time between request and
authorization manually. For example, the New York district office has dedicated a
fax line to receiving medical authorization requests. Their goal is to respond in one
week whenever possible. In Cleveland, each claims examiner maintains a log of
incoming correspondence that includes surgical authorization requests. The claims
examiners try to respond to the request within 10 working days of its receipt.
Tracking systems are left to the discretion of the district offices because OWCP’s
current computer system is not capable of tracking this information. However,
OWCP’s national management told us that they have directed each district office to
develop a way to track telephone medical authorization requests, which includes
requests for surgical authorizations. OWCP states that all district offices are
currently conducting tracking of telephone requests for medical authorizations and
are reporting on a quarterly basis to the national OWCP office.

In order to get an idea of OWCP’s timeliness in processing surgical authorizations,
we measured the elapsed time between OWCP’s receipt of a request for surgical
authorization and OWCP’s approval in 69 Philadelphia case files.2 We also noted
the number of Congressional inquiries in an effort to determine whether there were
patterns of delays in responding to these inquiries. In addition we reviewed OWCP
claimant complaint letters received by the OIG.

Elapsed Time
Our random sample of 69 cases drawn from the Philadelphia case files included
three high frequency surgical procedures: (1) arthroscopic knee surgery,
(2) rotator cuff repair and (3) herniated disk repair. We measured the elapsed time
between the surgical authorization request and OWCP’s authorization.

Although the overall range for processing surgical authorization requests was 0 to
354 days, ninety-three percent of the cases fell within the range of 0 to 85 days.
Leaving the five atypical cases (354, 326, 225, 124, and 102 days) out of our
calculations, we found that on average, OWCP processed surgical requests in 26
days, with the median (mid-point) being 17 days and the mode (most frequent


2
 OWCP does not keep a record of the number of surgical authorizations denied.

                                      9
value), which occurred 5 times, 7 days. The range shows what program officials
told us -- that the time it takes OWCP to process a surgical request varies greatly
depending on the case.

Congressional Inquiries
Our sample from the 69 Philadelphia case files included three files containing
Congressional correspondence. Each case was unique and did not appear to be
part of a pattern of delays on the part of OWCP.

1. On May 6, 1998, the Philadelphia District Office received a fax from
Congressman Joseph M. McDade’s office inquiring about the status of a claim.
Congressman McDade was particularly concerned about delays in authorizing
surgery and reimbursing pharmacy bills. The District Office responded to the fax
with a May 20th letter from the District Director. The Director stated that the office
had received the claims for reimbursement and the claimant should expect payment
in approximately two weeks. The office never received a request for authorization
of surgery.

Based on the case file, it appears that the claimant’s doctor sent the letter
requesting surgery to the claimant’s employer, the U.S. Postal Service, on April 23.
The Postal Service received the letter on April 29, but failed to forward it to the
OWCP District office. After the District Office received the surgery request on June
9, it authorized the surgery on June 15.

2. On May 11, 1998, the Philadelphia District Office received a letter from
Congressman Bud Shuster inquiring about the status of a claim. OWCP replied in
a May 21 letter stating that the claim had been approved and the claimant had been
informed of this by letter. OWCP received the claimant’s request for authorization
on March 27, 1998. A letter to the claimant appears in the file. The letter is not
dated, but its placement in the file suggests that it was sent prior to the May 11th
Congressional inquiry.

3. On April 8,1997, the Philadelphia District Office received a letter from
Congressman Bud Shuster requesting information about a claim. The claimant
injured his knee on July 9, 1996. The claimant waited for approval, but OWCP did
not receive his claim until January 16, 1997.

The District Office responded to Congressman Shuster in a letter dated April 18,
1997. The letter explained that on January 30, 1997, OWCP sent the claimant a
letter informing him that the information accompanying his claim was not sufficient


                                      10
for OWCP to determine eligibility for FECA benefits. The claimant sent additional
information on February 26, 1997. OWCP approved the claim and surgery on April
11, 1997, and sent a letter informing the claimant.

OIG Data
Currently, claimant complaints regarding delays in reimbursement and surgical
authorizations are infrequent. Our analysis of fiscal year 1998 OIG complaint letters
shows 64 letters concerning OWCP. Of the 64 letters, 7 involved complaints about
reimbursements and/or surgical authorizations. The 7 letters contained 4
complaints about medical reimbursements and 5 about delays in processing
surgical authorizations.




                                     11
III. Conclusions

      We found that the timeliness of OWCP’s reimbursement to claimants for out-of-
      pocket medical expenses is not a substantial issue. OWCP data show that
      claimant-submitted bills are only 3 percent of the total number of medical services
      paid for by OWCP. Overall, bills are paid in a timely manner and, furthermore,
      OWCP has implemented an electronic billing system for pharmacy bills, which in
      only four months has reduced the number of claimant-submitted bills by 10
      percentage points.

      OWCP has not set a performance standard for responding to requests for surgical
      authorizations. Although our review of 69 Philadelphia case files did not reveal a
      pattern of delay and claimant letters received by the OIG indicate that claimant
      complaints regarding delays in surgical authorizations are infrequent, we
      recommend that OWCP set a performance standard for responding to requests for
      surgical authorizations.




                                           12
IV. Recommendation

     We recommend that OWCP set a performance standard for responding to surgical
     requests. OWCP’s response might be in the form of a request for additional
     information, an appointment to see a physician for a second opinion exam or an
     approval for surgery. Four of OWCP’s twelve district offices already track surgical
     requests and have set performance standards. The performance standards range
     from 7 to 10 days.

     During the hearings claimants expressed confusion over OWCP’s processing of
     claims and surgical requests. Setting a performance standard for responding to
     surgical authorizations would not only enable OWCP to determine district offices’
     timeliness in this area, but may also eliminate a great deal of claimant uncertainty.

     OWCP Response
     “OWCP plans to review its practices in responding to surgery requests given the
     recommendation of your study and your emphasis on identifying more precisely
     where and how to focus our efforts at improving customer service. However, there
     are several reasons that we cannot establish a performance standard at this time.”

     OIG Conclusion
     On the basis of this response, we do not consider this recommendation resolved.

     Major Contributors to this Report:

     Amy C. Friedlander, Director, Division of Evaluations and Inspections
     Teserach Ketema, Team Leader
     Mary Elizabeth McNeill, Project Leader
     George T. Fitzelle, Program Analyst




                                           13
                                 Appendix A

                                 Background



The FECA [ 5 USC 8103(a)] requires that any civilian employee of the United States
who is injured while in the performance of duty, be provided with the medical services
and supplies needed to treat the injury. The rules governing reimbursements, surgical
authorizations, and timeliness follow.

Reimbursements
OWCP recognizes two types of reimbursements: provider-submitted and claimant-
submitted. Medical providers can directly bill OWCP for their services (provider-
submitted) or a claimant can pay for medical services out of his own pocket and
request reimbursement from OWCP (claimant-submitted). This study focuses on
claimant-submitted reimbursements. Claimant-submitted bills fall into three categories:
outpatient, physician and pharmacy.

To be reimbursed, a claimant must submit (1) a copy of an itemized standard billing
form (HCFA-1500, UB-92 or for pharmacies, the Universal Billing Form) which
provides the tax identification number of the vendor as well as each line item paid and
(2) a copy of a canceled check or proof of payment.

Surgical Authorizations
The FECA procedures manual states that in order to ensure payment, a claimant must
obtain prior authorization for surgery whenever possible. A physician must request the
surgery and provide medical evidence to show its necessity. However, if an employee
suffers a traumatic injury at work and requires emergency surgery, the employing
agency is responsible for authorizing the medical treatment within four hours of injury by
issuing a CA-16 form. The CA-16 guarantees the payment of medical treatment up to
60 days after the injury unless OWCP withdraws authorization in writing.

The time OWCP takes to authorize non-emergency cases varies depending on the
complexity of the condition. For example, before OWCP will authorize back surgery,
the claimant must obtain a second opinion or a consultant’s review of the medical
evidence. The FECA procedures manual states that an in-house review by a
consultant should occur within 21 days of receipt of the request for surgery, and any
second opinion examination required should be accomplished within 40 days. On the
other hand, OWCP does not require second opinion exams or a consultant’s review


                                           14
for injuries such as carpal tunnel surgery. A claims examiners may be able to authorize
the surgery based on the information already contained in the case file.

According to OWCP officials, many of the factors contributing to the length of
processing time are beyond OWCP’s control. For example, OWCP may need
additional medical information from the physician or a claimant may postpone an
appointment for a second opinion. The claims examiner may request additional
information regarding how the injury occurred to ascertain that the surgery is necessary
and concerns a work-related injury.

Timeliness
The OWCP Operational Plan includes a Timeliness Performance Measure for
processing (paying or denying) medical bills -- 90 percent are to be processed in 28
days and 95 percent in 60 days. However, OWCP does not have a timeliness standard
for processing requests for surgical authorizations. OWCP officials told us that it is
difficult to set a performance standard for processing surgical authorizations because
the time it takes to authorize a procedure varies depending on the type of case. We
contacted multiple sources such as the Workers’ Compensation Research Institute and
State Workers’ Compensation Programs, but did not find a standard with which to
measure OWCP’s performance.




                                         15
                                     Appendix B

                                     Methodology



To gather background information, we examined two pertinent previous studies– OIG’s
1998 study, Review of FECA Program Administration and the1994 GAO report,
Federal Employees’ Compensation Act - Non Evidence That Labor’s Physician
Selection Processes Biased Claimants’ Decisions. We then began our current review.
We started with the examination of OWCP’s performance in reimbursing claimants.
Subsequently, we reviewed agency performance in processing surgical authorization
requests. Table 1 of Appendix C lists the data sources we reviewed.

To determine OWCP’s performance in reimbursing claimants for out-of-pocket medical
expenses, we conducted interviews with OWCP senior management and obtained
OWCP bill payment data. We did not verify the statistical data obtained from OWCP’s
bill payment system. According to an OWCP official, OWCP defines a bill as a service
or prescription and most claimant reimbursement requests involve a single bill.
Outpatient and physician bill data include outpatient and physician bills paid from
October 1, 1997 to September 30,1998. Pharmacy bill data include pharmacy bills
paid from July 1, 1997 to July 14, 1998. The three month difference in reporting
periods is so small as to not be material to our review. The two sets of data give an
informative picture of OWCP’s bill payment performance. In addition we analyzed
complaint letters regarding delays in reimbursement and authorization for surgery sent
to the OIG in fiscal year 1998 (October 1, 1997 through September 30, 1998).

To study OWCP’s performance in processing surgical authorizations, OWCP furnished
summaries of administrative practices in district offices. To gain further insight into the
details of processing surgical authorizations, we visited the Philadelphia district office
and examined a random sample of case files. We selected the Philadelphia District
Office because OWCP data showed its performance was in the average range among
OWCP district offices.

To develop the random sample, we first reviewed a list of surgical procedures
commonly billed under FECA. OWCP created a list of frequently billed Physician’
Current Procedural Terminology (CPT) codes by extrapolating from bills paid for the
last quarter of fiscal year 1998. Using the CPT codes billed, we were able to identify
the procedures represented by the codes and determined the most frequently billed
procedures.


                                            16
Two of the most frequent codes were carpal tunnel surgery and epidurals. However,
we decided not to look at carpal tunnel and epidurals because neither procedure
always requires a specific authorization. We chose shoulder, knee and back surgery
as these procedures always require authorizations, are common and less likely to be
an emergency procedure necessitating an emergency authorization. Specifically, we
looked at rotator cuff repair (CPT # 23420), knee arthroscopy (CPT # 29881) and
herniated disk repair (CPT # 63030). We included herniated disk repair because it
represented a case that required a second-opinion exam before authorization. This
requirement indicates that OWCP would take longer to authorize this procedure. We
determined that these codes would provide an adequate sample to measure the
number of days it takes OWCP to authorize a requested surgery.

After determining which codes we would review, we used a stratified random sampling
for attributes method to select cases allocated proportionally among the three codes.
This sampling method yielded 74 cases for review.

During our visit to Philadelphia we reviewed 69 case files and gathered information on
selected variables including those related to identified time-frames. Five of the 74
cases we selected were not at the Philadelphia office at the time of our review. More
specifically, the variables we recorded included the type of procedure and number of
days between the date of request and the date of authorization.




                                        17
                               Appendix C

                                Table 1
                         Data Sources Reviewed



Transcript of Proceedings held before Chairman Horne, July 6, 1998 in California.
Reported by Bill Warren for York Stenographic Services, York, PA.

July 31, 1998 OWCP’s Response to Claimant Testimony

OWCP Bill Payment Data

      Pharmacy bills (7/1/97 - 12/15/98)

      Physician bills (Fiscal Year 1998)

      Outpatient bills (Fiscal Year 1998)

OIG Complaint Letters (Fiscal Year 1998 - January Fiscal Year 1999)

Philadelphia District Office Case Records




                                    18
  Appendix D

Agency Response




      19
